APPENDIX A
Fourth Circuit Court of Appeals Order of April 28,2020

Appendix A

SS#'
f

&

m

W
m

s
r
g

M

FILED: April 28, 2020

0

;

UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

/

r
i

f

No. 20-1419
(1:20-cv-00363-LMB-MSN)

JAMES TOLLE,
Plaintiff - Appellant,
v.

GOVERNOR RALPH NORTHAM; COMMONWEALTH OF VIRGINIA,
Defendants - Appellees.

ORDER

Upon considerations of Appellant’s motion for an injunction or stay pending appeal
%

and the motion for leave to file a response and opposition to the motion for an injunction
or stay pending appeal filed by Americans United for Separation of Church and State, the
court denies the motions.
Entered at the direction of the panel:

Judge Keenan, Judge Thacker, and

Senior Judge Shedd.
For the Court
/s/ Patricia S. Connor. Clerk

It

APPENDIX B
District Court’s Order of April 8, 2020

Appendix B

IN THE UNITED STATES DISTRICT COURT FOR THE
EASTERN DISTRICT OF VIRGINIA
Alexandria Division
JAMES TOLLE,

)
)
)
)

Plaintiff,
v.

)

GOVERNOR RALPH NORTHAM and the
COMMONWEALTH OF VIRGINIA,

1:20-cv-363 (LMB/MSN)

)
)
)
)

Defendants.
ORDER
On April 1,2020, plaintiff pro se James Tolle (“plaintiff’ or “Tolle”)' filed a civil
complaint along with a Motion for Preliminary Injunction and Expedited Hearing in which he
a

alleged that Virginia’s Temporary Stay at Home Order Due to Novel Coronavirus (COVID-19)
(“the Executive Order”) violated his constitutional rights, and sought a whole or partial stay of
execution of that order.2 He also asked the Court to order service of his complaint on defendants
by the United States Marshals Service pursuant to Federal Rule of Civil Procedure 4(c)(3).
Plaintiffs motions were denied because, although plaintiff claimed he was entitled to emergency
relief, the Court found that “the only current emergency is the one caused by the Coronavirus,”
and that “[i]n these exigent and extraordinary circumstances, putting members of the United
States Marshals Service at risk to serve this complaint would be inappropriate. Nor is an

Although plaintiffs complaint states that he “has never had a complaint heard in this Court
prior to the present complaint,” [Dkt No. 1] If 8, in fact he has another complaint pending before
this court in which he alleges that he was subjected to a hostile work environment based on his
religion and constructively discharged because his employer placed “Gay Pride flag[sl” on its
flag poles for a 30-day period, after which plaintiff left his job. See Tolle v. Rockwell Collins
Control Technologies. Inc.. Nn. l:20-cv-174.
2 In his complaint, plaintiff seeks money damages in addition to injunctive and declaratory relief.

/
r

V

7

/

expedited hearing warranted, given that the Chief Judge for this district has issued General Order
2020-07, which postpones all civil and criminal in-person proceedings through May 1,2020 due
to the virus.” [Dkt. No. 5]. Plaintiff has moved for reconsideration, arguing in part that the
Court’s order is similar to Korematsu v. United States. 323 U.S. 214 (1944) in which the
Supreme Court upheld the internment of Japanese-Americans during World War II. For the
reasons that follow, this motion will be denied.
“The grant of a [temporary restraining order (TRO)] or a preliminary injunction is an
‘extraordinary remedy that may only be awarded upon a clear showing that the plaintiff is
entitled to such relief.’” Fowler v. Wells Fargo Home Morte.. Inc.. No. 15-cv-1084,2015 WL
2342377, at *2 (D. Md. May 13,2015) (quoting Dewhurst v. Century Aluminum Co.. 649 F.3d
287,290 (4th Cir. 2011)). “The party seeking a preliminary injunction must... demonstrate all
of the following: (1) that [he] is likely to succeed on the merits of its claim; (2) that [he] is likely
to suffer irreparable harm in the absence of a preliminary injunction; (3) that the balance of
equities tips in [his] favor; and (4) that the injunction is in the public interest.” Accident Injury
& Rehab.. PC v. Azar. 943 F.3d 195,201 (4th Cir. 2019) (emphasis in original) (citing Winter v.
Natural Res. Def. Council. Inc.. 555 U.S. 7,20 (2008)).
Even if plaintiff were likely to succeed on the merits and to suffer irreparable harm in the
absence of preliminary relief, his motion for injunctive relief fails because he has not established
that the balance of equities tip in his favor or that an injunction is in the public interest. The
alleged harms to plaintiff include the temporary inability to participate in public worship at his
church and to conduct his duties as a practicing member of his chinch’s lay ministry for the brief
period that remains before the Executive Order expires. Although the Court recognizes plaintiff’s
constitutional concerns, those concerns do not outweigh the severe harm defendants would suffer

2

if they could not enforce the Executive Order. Moreover, it is no exaggeration to recognize that
the stakes for residents of the Commonwealth are life-or-death. Granting plaintiffs motion for
injunctive relief at this time would also disserve the public interest, because enabling large
groups to gather in April and May 2020 without practicing social distancing, as Tolle seems to
be requesting, could facilitate the spread of the virus arid endanger the lives of many Virginians,
particularly given that Coronavirus cases in the Commonwealth are expected to peak during that
period.
None of plaintiffs other arguments in support of his motion are persuasive. For example,
plaintiff suggests that the Executive Order is unprecedented. Although that may be true, the crisis
imposed by the Coronavirus is also unprecedented, and the danger this crisis poses to the welfare
of all residents in this Commonwealth as well as its neighboring states, fully justifies denial of
plaintiffs motion.
Plaintiff also argues that a hearing on the motion should be held on Friday, April 24,
2020; however, under the local rules “the Court may rule upon motions without an oral hearing,”
Local Civ. R. 7(J), and a hearing would not aid in the decisional process. Finally, plaintiff
continues to argue that the Court should order the United States Marshals Service to serve his
complaint on defendants. Under Federal Rule of Civil Procedure 4(c)(3), service by the United
States Marshals Service is not required. Rule 4(c)(3) provides that M[a]t the plaintiffs request,
the court may order that service be made by a United States marshal or deputy marshal or by a
person specially appointed by the court.” Id (emphasis added). “Ifthe plaintiffis proceeding in
forma pauperis..., service by the United States Marshal is mandatory.... If the plaintiffis not
proceeding in forma pauperis ..., the decision falls within the discretion of the court.”
Blackburn v. Catawba Cty„ N. Carolina. No. 5:19-cv-101,2020 WL 718272, at *3 (W.D.N.C.

3

/
/

Feb. 12,2020) (citing Fed. R. Civ. P. 4(c)(3)). Plaintiff is not proceeding in forma pauperis. ,
Y

Accordingly, it is within the Court’s discretion to determine whether to order service by the
United States Marshals Service. For the reasons articulated in the Court’s previous order denying
plaintiff s motion for preliminary injunction, and because of the ongoing threats posed by the
Coronavirus, the Court finds that service by United States Marshals Service personnel is
inappropriate at this time.3 For all of these reasons, it is hereby
ORDERED that plaintiffs Motion for Reconsideration of Court Order Denying
Preliminary Injunction, Expedited Hearing and Service of Complaint by United States Marshal
[sic] Service [Dkt. No. 7] be and is DENIED; and it is further
ORDERED that the hearing requested for Friday, April 24,2020 be and is
CANCELLED.
The Clerk is directed to forward copies of this Order to plaintiff, pro se.
To appeal this decision, plaintiff must file a written notice of appeal with the Clerk of the
Court within thirty (30) days of the date of entry of this Order. A notice of appeal is a short
statement indicating a desire to appeal, including the date of the order plaintiff wants to appeal.
Plaintiff need not explain the grounds for appeal until so directed by the court of appeals. Failure
to file a timely notice of appeal waives plaintiffs right to appeal this decision.
Entered this _&Jday of April, 2020.
ht
Leonie M. Brink^ma *
United States District Judge

Alexandria, Virginia

s

Plaiptiffs complaint states that it is difficult “to find civilian process servers who can effect
service during this period, [Dkt. No. 1)^7, which underscores the dangers inherent in serving
process at this time. This danger applies equally to the United States Marshals Service.
Moreover, the resources of the United States Marshals Service are limited and must be reserved
for courthouse security and other urgent matters.
4

4.

t

APPENDIX C
District Court’s Order of April 1,2020

Appendix C

, Case l:20-cv-00363-LMB-MSN Document 5 Filed 04/01/20 Page 1 of 2 PagelD# 60

IN THE UNITED STATES DISTRICT COURT FOR THE
EASTERN DISTRICT OF VIRGINIA
Alexandria Division
JAMES TOLLE,

)
)
)
)

Plaintiff,

) ,

v.
GOVERNOR RALPH NORTHAM and the
COMMONWEALTH OF VIRGINIA,

1:20-cv~363 (LMB/MSN)

)
)
)
)

Defendants,
ORDER
Proceeding pro $e. plaintiff James Tolle (“plaintiff5 or “Toile”) has filed a complaint
against Governor Ralph Northam and the Commonwealth of Virginia (“defendants”) under
42 U.S.C, § 1983, alleging that Governor Northam1 s Executive Order 55, entitled Temporary
Stay at Home Order Due to Novel Coronavirus (COVID-19) (“the Executive Order”), violates
plaintiffs rights under the First, Fourth, and Fourteenth Amendments to the United States
Constitution, The novel Coronavirus has been declared a pandemic and a national emergency.
Accordingly, many governors have issued stay-at-home orders to protect their citizens.
Virginia's Executive Order imposes certain requirements from March 30,2020 until June 10,
2020, including banning all public and private in-person gatherings of more than ten individuals,
and requiring individuals using shared or outdoor spaces to maintain social distancing of at least
six feet from any other person, with certain exceptions.
Plaintiff is a practicing member in a lay ministry at his church in Gainesville, Virginia,
and he claims that the Executive Order interferes with many of his constitutional rights,
including the free exercise of religion, freedom of assembly, and the rights to liberty, equal
protection, and substantive due process. Plaintiff has filed a Motion for Preliminary Injunction

<r

p, Case l:20-cv-00363-LMB-MSN Document 5 Filed 04/01/20 Page 2 of 2 PagelD# 61
■/

/
/

/

and Expedited Hearing, in which he seeks a whole or partial stay of execution of the Executive
/

Order. He also seeks declaratory relief, a permanent injunction, and damages and fees. Finally,
he requests that die Court order service of the complaint on defendants by the United States
Marshals Service pursuant to Federal Rule of Civil Procedure 4(c)(3).
It is clear from a review of plaintiffs complaint and motion that the only current
emergency is the one caused by the Coronavirus. In these exigent and extraordinary
circumstances, putting members of the United States Marshals Service at risk to serve this
complaint would be inappropriate. Nor is an expedited hearing warranted, given that the Chief
Judge for this district has issued General Order 2020-07, which postpones all civil and criminal
in-person proceedings through May l, 2020 due to the virus. Accordingly, it is hereby
ORDERED that plaintiffs Motion for Preliminary Injunction and Expedited Hearing
[Dkt. No. 3] be and is DENIED; and it is further
ORDERED that plaintiffs Motion for Service of Complaint by U.S. Marshal Service
[Dkt No. 21 be and is DENIED.
The Clerk is directed to forward copies of this Order to plaintiff, pro $e.
Entered this f

day of April, 2020.

Alexandria, Virginia

/s/

Leonie M Brinkema
United States District Judge

■

1

n

APPENDIX D
Defendant Northam’s Executive Order 55 (2020) of March 30, 2020

Appendix D

''C&fftmQnwea.(i$ of Virginia
. Offimfff the.-Gmemm

m
NUMBER FIFTY-FIVE (2020)
TEMPORARY STAY AT HOME ORDER
DUE TO NOVEL CORONAVIRUS (COVTO-19)
To reinforce the Commonwealth’s response to COVID-19 and in furtherance of Executive
Orders 51 (March 12, 2020) and 53 (March 23, 2020) and by virtue of the authority vested in me
by Article V, Section 7 of the Constitution of Virginia, by § 44-146.17 of the Code of Virginia, I
order the following:
1. All individuals in Virginia shall remain at their place of residence, except as
provided below by this Order and Executive Order 53. To the extent individuals
use shared or outdoor spaces, whether on land or on water, they must at all times
maintain social distancing of at least six feet from any other person, with the
exception of family or household members or caretakers. Individuals may leave
their residences for the purpose of:
a. Obtaining food, beverages, goods, or services as permitted in Executive
Order 53;
b. Seeking medical attention, essential social services, governmental
services, assistance from law enforcement, or emergency services;
c. Taking care of other individuals, animals, or visiting the home of a family
member;
d. Traveling required by court order or to facilitate child custody, visitation,
or child care;
e. Engaging in outdoor activity, including exercise, provided individuals
comply with social distancing requirements;
f. Traveling to and from one’s residence, place of worship, or work;

g. Traveling to and from an educational institution;
h. Volunteering with organizations that provide charitable or social services;
and
i.

Leaving one’s residence due to a reasonable fear for health or safety, at the
direction of law enforcement, or at the direction of another government
agency.

2. All public and private in-person gatherings of more than ten individuals are
prohibited. This includes parties, celebrations, religious, or other social events,
whether they occur indoor or outdoor. This restriction does not apply:
a. To the operation of businesses not required to close to the public under
Executive Order 53; or
b. To the gathering of family members living in the same residence.
3. Institutions of higher education shall cease all in-person classes and instruction,
and cancel all gatherings of more than ten individuals. For purposes of facilitating
remote learning, performing critical research, or performing essential
functions, institutions of higher education may continue to operate, provided that
social distancing requirements are maintained.
4. Effective April 1, 2020 at 11:59 p.m., cessation of all reservations for overnight
stays of less than 14 nights at all privately-owned campgrounds, as defined in §
35.1-1 of the Code of Virginia.
5. Closure of all public beaches as defined in § 10.1-705 of the Code of
Virginia for all activity, except exercising and fishing. Social distancing
requirements must be followed.
6. All relevant state agencies shall continue to work with all housing partners to
execute strategies to protect the health, safety, and well-being of Virginians
experiencing homelessness during this pandemic and to assist Virginians in
avoiding evictions or foreclosures.
7. As provided in Executive Order 53, nothing in this Order shall limit: (a) the
provision of health care or medical services; (b) access to essential services for
low-income residents, such as food banks; (c) the operations of the media; (d) law
enforcement agencies; or (e) the operation of government.
Violation of paragraphs 2, 3, 4, and 5 of this Order shall be a Class 1 misdemeanor
pursuant to § 44-146.17 of the Code of Virginia.

2

Effective Date of this Executive Order
This Executive Order shall be effective March 30, 2020, amends Amended Order of the
Governor and State Health Commissioner Declaration of Public Health Emergency, Order of
Public Health Emergency One and Executive Order 53, and shall remain in full force and in
effect until June 10, 2020, unless amended or rescinded by further executive order.
Given under my hand and under the Seal of the Commonwealth of Virginia, this 30th day
of March, 2020.

Ralph S. Northam, Governor

Attest:

Kelly Thomasson, Secretary of the Commonwealth

3

*

t

APPENDIX E
Petitioner’s Complaint of April 1, 2020

Appendix E

9.

Tolle respectfully requests leave of the Court to cure any error or defect in service

related to this complaint prior to final consideration of Plaintiff’s complaint, which is requested
in order to serve the interests of justice and to avoid injury to Plaintiff’s due process rights.
10.

Tolle respectfully requests leave of the Court to correct any other errors found in

the present complaint and cure any other defects or omissions by amendment prior to final
consideration of Plaintiff’s complaint by the Court, which is requested in order to serve the
interests of justice and to avoid injury to Plaintiff’s due process rights.
FACTUAL ALLEGATIONS
Declaration of National Emergency due to Corona Virus
11.

On or around March 13, 2020, President Trump issued the Proclamation on

Declaring a National Emergency Concerning the Novel Coronavirus Disease (COVID-19)
Outbreak (hereinafter, the “Declaration of National Emergency”). Upon information and belief,
this declaration does/did not authorize Defendants’ actions which have violated Tolle’s
Constitutional rights. Specifically, the Declaration of National Emergency stated: “This
proclamation shall be implemented consistent with applicable law and subject to the availability
of appropriations.”
12.

On or around March 16, 2020, the Whitehouse and Centers for Disease Control

issued the “President’s Coronavirus Guidelines for America 15 Days to Control the Spread”
(hereinafter, the “President’s Guidelines). Upon information and belief, the President’s
Guidelines are non-binding rules recommended for voluntary action by States and the American
people. Upon information and belief, the President’s Guidelines did not/do not require any
specific action by Defendant Governor Northam or any other Virginia official. Upon information
and belief, the President’s Guidelines do not contain any medical recommendations which would
apply to healthy people or people infected by the COVID-19 virus. Upon information and belief,

4

the President’s Guidelines do not make any actions by the American people a criminal offense
13.

On or around March 17, 2020, over 1 million people gathered together in groups

often greater than 10 people to conduct the Democratic primary elections in Florida, Arizona and
Illinois. Upon information and belief, the President’s Guidelines did not see a significant threat
from COVID-19 such that the President’s Guidelines were used to prevent these people from
carrying out their Constitutional right to travel assemble and vote. Upon information and belief,
Defendant Northam never made any public statement expressing concern for the citizens of these
other states so flagrantly exceeding the restrictions suggested by the President’s guidelines.
14.

Upon information and belief, there is no consensus of medical science that shows

that healthy people or people who appear healthy and do not have symptoms can communicate
the virus to others in close contact less than six feet apart. Upon information and belief,
Defendant Northam’s orders and actions are not based on a consensus of medical science about
the modes of transmission of COVID-19.
15.

On or around February 7, 2020, the Director of the National of Allergy and

Infectious Disease, Dr. Anthony Fauci stated that the basis of his belief that a person appearing
healthy may transmit the COVID-19 virus was from anecdotal reports from the Chinese, stating:
“I made a call to a person who I know very well who is a highly respected scientist and publich
health official in China, and I said, it’s important for us to get the answer...can an asymptomatic
person transmit it? [they said] Absolutely, we’ve seen it...it’s not driving the outbreak, but it
occurs.”
16.

According to the public information at the Centers for Disease Control

(hereinafter, “CDC”), the consensus of current medical science believes that the main mode of
transmission of the COVID-19 virus is through contact with persons who have symptoms, which
is stated on the CDC’s “How Coronavirus Spreads” website as follows:

5

•
•
17.

“The virus is thought to spread mainly from person-to-person.
Between people who are in close contact with one another (within about 6 feet).
Through respiratory droplets produced when an infected person coughs or sneezes.”
According to the public information at the CDC, the consensus of medical science

has not shown that the transmission of COVID-19 from a healthy person or an asymptomatic
person who may have the virus is a definite mode or threat of transmission, with the “How
Coronavirus Spreads” website stating:
“People are thought to be most contagious when they are most symptomatic
(the sickest)
Some spread might be possible before people show symptoms...but this is not
thought to be the main way the virus spreads.”
18.

On or around March 20, 2020, Dr. Fauci stated “It’s still not quite clear....” when

asked about the CDC’s science behind his belief that COVID-19 can be transmitted by
asymptomatic individuals.
Governor’s Executive Order Number Fifty-Five (2020)
19.

Defendant Northam signed and issued Executive Order Number Fifty-Five

(2020) (hereinafter, “EO-55”) on or around March 30, 2020.
20.

EO-55 states it “shall be effective March 30, 2020...and shall remain in full force

and in effect until June 10, 2020....”
21.

Upon information and belief, EO-55 requires all individuals in Virginia to remain

in their place of residence and only allows individuals to leave their residences for the purpose
of: obtaining essential services, seeking medical or other essential services, taking care of
individuals or animals, court ordered travel, outdoor activity while staying at least six feet from
any other person, traveling to place of worship, work or school, volunteering to help charitable
services, or due to fear of health or safety or upon direction by a government representative.
22.

EO-55 states: “To the extent individuals use shared or outdoor spaces...they must

at all times maintain social distancing of at least six feet from any other person....”
6

23.

In paragraph 2, EO-55 prohibits: “All public and private in-person gatherings of

more than ten individuals....This includes parties, celebrations, religious or other social events,
whether they occur indoor or outdoor”.
24.

In paragraph 5, EO-55 orders the closure “of all public beaches...for all activity,

except exercising and fishing.”
25.

EO-55 states: “Violation of paragraphs 2, 3, 4, and 5 of this Order shall be a

Class 1 misdemeanor pursuant to § 44-146.17 of the Code of Virginia.”
26.

Upon information and belief, the powers which Defendant Northam’s orders

under EO-55 have granted government autiiorities to act against and restrain United States
citizens is unprecedented in American history. These actions and orders of Defendant Northam
are far greater than any previous actions under emergency powers or.during time of national
emergency, at least since the unconstitutional involuntary internment of Japanese-American
citizens under President Roosevelt. Furthermore, Defendant Northam’s actions and orders under
EO-55 are far more sweeping and abusive than any quarantine powers used by elected officials
in all of the history of our Republic because Defendant Northam’s orders are the first time that
the quarantine power has been used against innocent, healthy citizens who are located in any part
of Virginia, even in locations which do not show any evidence of the disease.

CAUSES OF ACTION
AS AND FOR A FIRST CAUSE OF ACTION
VIOLATION OF FIRST AMENDMENT’S FREE EXERCISE OF RELIGION
27.

Tolle re-alleges and incorporates the above allegations of this complaint as if set

forth fully herein.
28.

The First Amendment of the United States Constitution states “Congress shall

7

make no law respecting an establishment of religion, or prohibiting the free exercise thereof....”
29.

42 U.S.C § 1983

states:

“Every person who, under color of any statute,

ordinance, regulation, custom, or usage, of any State or Territory or the District of Columbia,
subjects, or causes to be subjected, any citizen of the United States or other person within the
jurisdiction thereof to the deprivation of any rights, privileges, or immunities secured by the
Constitution and laws, shall be liable to the party injured in an action at law, suit in equity, or
other proper proceeding for redress....”
30.

Defendant Northam’s order under EO-55 prohibits the free exercise of religion by

United States citizens in Virginia by prohibiting all “public and private in-person gatherings of
more than ten individuals..explicitly including “religious or other social events, whether they
occur indoor or outdoor”. Furthermore, Defendant Northam’s order makes it a crime to exercise
one’s religion in violation of his prohibitions. This is substantiated by facts in paragraphs 23 and
25.

31.

Defendant Northam’s order under EO-55 was/is a regulation, custom or usage

which causes Tolle and every United States citizen in Virginia to be deprived of his or her right
to exercise his or her religion, even in settings where all individuals appear healthy or individuals
are observing a safe distance of 6 feet separation, such right, privilege or immunity being
explicitly guaranteed by the First Amendment of the United States Constitution. Tolle’s Church
has already stopped offering public services because of Defendant Northam’s orders.
Furthermore, Defendant Northam’s order under EO-55 was/is an action under the color of statute
or ordinance which violates Tolle’s Constitutional rights because Defendant Northam’s order
makes it a crime under § 44-146.17 for an individual to violate his order. This is substantiated by
facts in paragraph 5, 23 and 25.
32.

Defendants’ orders under EO-55 which prohibit the exercise of religion under the

8

United States Constitution disproportionately deprive healthy people of their rights and are an
unreasonable restriction on the religious rights of citizens to practice their religion because there
is no consensus in medical science that persons not showing symptoms can endanger others or
transmit the COVID-19 virus. Defendant Northam’s orders under EO-55 are unnecessary since
citizens can reasonably ensure that people without symptoms or those who are most vulnerable
to the COVID-19 virus are not present in any gathering for religious purposes and it is possible
for the government to find other means to protect the health and safety of citizens without
depriving them of their Constitutional rights. Defendant Northam’s orders under EO-55 are also
an unnecessary intrusion on the rights of citizens because by prohibiting all gatherings inside and
outside, it ignores the fact that many locations inside and outside provide the space for religious
gatherings to allow a safe separation of over 6 feet between citizens and thereby abide by the
President’s Guidelines. This is substantiated by facts in paragraphs 12, 13, 14, 15, 16, 17, and
18.
33.

Defendant Northam’s orders under EO-55 are arbitrary and unprecedented

because they ignore the fact that the President’s guidelines did not restrict people’s right to travel
and assemble during the Democratic primaries in three states after the President’s Guidelines
were released and Defendant Northam’s support of allowing persons to exercise their right to
travel and assemble for his Democratic party events while restricting the right of healthy
Virginians to travel and assemble for rights guaranteed under the United States Constitution
which are just as sacred as Democratic party primary voting is to our nation is hypocritical,
arbitrary and shows how unnecessary Defendant Northam’s orders under EO-55 are.
Furthermore, Defendant Northam’s orders under EO-55 are arbitrary and subjectively punish a
vast number of citizens because Defendant Northam’s orders impose moral values on the
subjects of his order based on Defendant Northam subjective moral judgment, such as making

9

exceptions for some activities on public beaches while prohibiting others; such as making a
moral evaluation that religious gatherings are not as essential as voting in primaries.

This is

supported by the facts in paragraph 13,14, 23, 24, 25 and 26.
Claim related to First Cause ofAction
34.

For these reasons, Defendant NorthanTs actions and the Commonwealth’s

actions which issued Defendant Northam’s EO-55 orders were actions under color of
statute, ordinance, regulation, custom, and/or usage, of the State organized as the
Commonwealth of Virginia, which subjected (or subjects), or caused (or causes) to be
subjected, Tolle and all other citizens of the United States or other persons within the
jurisdiction of Virginia to the deprivation of the rights, privileges, or immunities secured by
the First Amendment of the Constitution. Such actions of Defendants’ are a violation of 42
U.S.C § 1983 which have caused Tolle to suffer injuries and damages, including, but not
limited to, loss of right to exercise his Constitutionally protected rights, liberties and
freedoms, loss of right to use his property as desired, and other damages in an amount to be
proved at trial according to proof, including but not limited due to, damage to his
reputation, injury to his profession and business, emotional harm, and exposure to distrust,
contempt, and unfair treatment.
35.

If the facts presented in this First Cause of Action are taken as true, it is probable

that the Defendant Northam’s orders under EO-55 prohibits the exercise of religion of Tolle and
all other healthy United States citizens in Virginia without a consensus of medical science
justifying action against healthy citizens. Based on the fact that the pleaded factual content
should allow the Court to draw a reasonable inference that Defendants’ actions in ordering EO55 or carrying out EO-55 were/are actions under color of a regulation, custom, and/or usage, of
the Commonwealth of Virginia which serves to deprive Tolle and other citizens in Virginia the

10

rights, privileges and immunities secured by the First Amendment of the United States
Constitution, the claims included within this First Cause of Action are based on non-conclusory
statements of fact and are facially plausible.
36. Tolle requests award of attorney’s fees pursuant to 42 U.S.C § 1988.

AS AND FOR A SECOND CAUSE OF ACTION
VOLATION OF FIRST AMENDMENT’S RIGHT TO ASSEMBLE
37.

Tolle re-alleges and incorporates the above allegations of this complaint as if set

forth fully herein.
38.

*r

The First Amendment of the United States Constitution states “Congress shall

make no law...abridging...the right of the people peaceably to assemble....”
39.

42 U.S.C § 1983

states:

“Every person who, under color of any statute,

ordinance, regulation, custom, or usage, of any State or Territory or the District of Columbia,
subjects, or causes to be subjected, any citizen of the United States or other person within the
jurisdiction thereof to the deprivation of any rights, privileges, or immunities secured by the
Constitution and laws, shall be liable to the party injured in an action at law, suit in equity, or
other proper proceeding for redress....”
40.

Defendant Northam’s order under EO-55 prohibits all “public and private in-

person gatherings of more than ten individuals....”, explicitly including “whether they occur
indoor or outdoor” and makes it a crime if individuals violate this order. This is substantiated by
facts in paragraph 23 and 25.
41.

Defendant Northam’s order under EO-55 abridges the ability of persons to

assemble by requiring no persons to come less than six feet apart: “To the extent individuals use
shared or outdoor spaces...they must at all times maintain social distancing of at least six feet

11

from any other person....” This is substantiated by facts in paragraph 22.
42.

Defendant Northam’s order under EO-55 was/is a regulation, custom or usage

which causes Tolle and every United States citizen in Virginia to be deprived of his or her right
to freely gather or assemble, even in settings where all individuals appear healthy or individuals
are observing a safe distance of 6 feet separation, such right, privilege or immunity being
explicitly guaranteed by the First Amendment of the United States Constitution. Furthermore,
Defendant Northam’s order under EO-55 was/is an action under the color of statute or ordinance
which violates Tolle’s Constitutional rights because Defendant Northam’s order makes it a crime
under § 44-146.17 for an individual to violate his order. This is substantiated by facts in
paragraph 23 and 25.
43.

Defendant Northam’s actions and orders under EO-55 directly and unreasonably

restrict the Constitutional rights of Tolle and other Virginians because his orders make it a crime
for persons who express political opposition to Defendant Northam’s actions to gather more than
10 persons in any place throughout the entire Commonwealth of Virginia to publicly express
their political opposition. This is supported by the facts in paragraphs 23 and 25.
44.

Defendants’ orders under EO-55 which abridges the rights of citizens in Virginia

to gather and come within 6 feet of each other under the United States Constitution
disproportionately deprive healthy people of their rights and are an unreasonable restriction on
the right of citizens to assemble because there is no consensus in medical science that persons
not showing symptoms can endanger others or transmit the COVID-19 virus. Furthermore,
defendant Northam’s orders under EO-55 which prohibit the gathering of more than 10 people,
even outside, are unnecessary since citizens can reasonably ensure that people without symptoms
or those who are most vulnerable to the COVID-19 virus are not present in any gathering and it
is possible for the government to find other means to protect the health and safety of citizens

12

without depriving them of their Constitutional rights. Defendant Northam’s orders under EO-55
are also an unnecessary intrusion on the rights of citizens because by prohibiting all gatherings
inside and outside, it ignores the fact that many locations inside and outside provide the space for
gatherings to allow a safe separation of over 6 feet between citizens and thereby abide by the
President’s Guidelines. This is substantiated by facts in paragraphs 12, 13, 14, 15, 16, 17, and
18.
45.

Defendant Northam’s orders under EO-55 are arbitrary and unprecedented

because they ignore the fact that the President’s guidelines did not restrict people’s right to travel
and assemble during the Democratic primaries in three states after the President’s Guidelines
were released and Defendant Northam’s support of allowing persons to exercise their right to
travel and assemble for his Democratic party events while restricting the right of healthy
Virginians to travel and assemble for rights guaranteed under the United States Constitution
which are just as sacred as Democratic party primary voting is to our nation is hypocritical,
arbitrary and shows how unnecessary Defendant Northam’s orders under EO-55 are, based on
actions by Defendant Northam which favor his political party while restricting the political
activities of his opponents. Furthermore, Defendant Northam’s orders under EO-55 are arbitrary
and subjectively punish a vast number of citizens because Defendant Northam’s orders impose
moral values on the subjects of his order based on Defendant Northam subjective moral
judgment, such as making exceptions for some activities on public beaches while prohibiting
others; such as making a moral evaluation that religious gatherings are not as essential as voting
in primaries. This is supported by the facts in paragraph 13,14, 23, 24, 25and 26.
Claim related to Second Cause of Action
46.

For these reasons, Defendant Northam’s actions and the Commonwealth’s

actions which issued Defendant Northam’s EO-55 orders were actions under color of

13

statute, ordinance, regulation, custom, and/or usage, of the State organized as the
Commonwealth of Virginia, which subjected (or subjects), or caused (or causes) to be
subjected, Tolle and all other citizens of the United States or other persons within the
jurisdiction of Virginia to the deprivation of the rights, privileges, or immunities secured by
the First Amendment of the Constitution. Such actions of Defendants’ are a violation of 42
U.S.C § 1983 which have caused Tolle to suffer injuries and damages, including, but not
limited to, loss of right to exercise his Constitutionally protected rights, liberties and
freedoms, loss of right to use his property as desired, and other damages in an amount to be
proved at trial according to proof, including but not limited due to, damage to his
reputation, injury to his profession and business, emotional harm, and exposure to distrust,
contempt, and unfair treatment.
47.

If the facts presented in this Second Cause of Action are taken as true, it is

probable that the Defendant Northam’s orders under EO-55 abridges the right of Tolle and all
other healthy United States citizens in Virginia to assemble without a consensus of medical
science justifying action against healthy citizens. The facts show that Defendant Northam’s
orders under EO-55 severely and unnecessarily restrict the freedom of Tolle and others to
assemble such that Defendant Northam’s orders make it a crime for Tolle and others to gather
more than 10 people together at any location to publicly oppose the Defendants’ actions. Based
on the fact that the pleaded factual content should allow the Court to draw a reasonable inference
that Defendants’ actions in ordering EO-55 or carrying out EO-55 were/are actions under the
color of a statute, regulation, custom, and/or usage, of the Commonwealth of Virginia which
serves to deprive Tolle and other citizens in Virginia the rights, privileges and immunities
secured by the First Amendment of the United States Constitution, the claims included within
this Second Cause of Action are based on non-conclusoiy statements of fact and are facially

14

plausible.
48. Tolle requests award of attorney’s fees pursuant to 42 U.S.C § 1988.

AS AND FOR A THIRD C AUSE OF ACTION
VIOLATION OF FOURTH AMENDMENT
49.

Tolle re-alleges and incorporates the above allegations of this complaint as if set

forth fully herein.
50.

The Fourth Amendment of the United States Constitution states: “The right of the

people to be secure in their persons, houses, papers, and effects, against unreasonable searches
and seizures, shall not be violated....”
51.

42 U.S.C § 1983

states:

“Every person who, under color of any statute,

ordinance, regulation, custom, or usage, of any State or Territory or the District of Columbia,
subjects, or causes to be subjected, any citizen of the United States or other person within the
jurisdiction thereof to the deprivation of any rights, privileges, or immunities secured by the
Constitution and laws, shall be liable to the party injured in an action at law, suit in equity, or
other proper proceeding for redress....”
52.

Defendant Northam’s order under EO-55 prohibits all “public and private in-

person gatherings of more than ten individuals....”, explicitly including “whether they occur
indoor or outdoor” and makes it a crime if individuals violate this order. This is substantiated by
facts in paragraph 23 and 25.
53.

By prohibiting private all in-person private gatherings on the personal property

and even within the homes of United States citizens in Virginia, making it a crime if such
gathering is greater than 10 persons and includes any person who is not a family member,
Defendant Northam’s order intends to intrude into the personal property and homes of United

15

States citizens farther than any author of the Fourth Amendment ever dreamed and to a greater
extent than any elected official has ever done before in American history. The only effective way
for Defendant Northam to carry out the prohibitions in the order is to invade the private domicile
of American citizens with the full force of the State, as was once possible in the American
colonies under the tyrannical rule of an all-powerful monarch, such act being the very thing that
the authors of the Fourth Amendment intended to prevent American executives from ever having
the power to do. For these reasons, Defendant Northam’s order under EO-55 was/is a regulation,
custom or usage which causes Tolle and every United States citizen in Virginia to be deprived of
his or her right to be secure in his person, house, property and effects, such right, privilege or
immunity being explicitly guaranteed by the Fourth Amendment of the United States
Constitution. Furthermore, Defendant Northam’s order under EO-55 was/is an action under the
color of statute or ordinance which violates Tolle’s Constitutional rights because Defendant
Northam’s order makes it a crime under § 44-146.17 for an individual to violate his order. This
is substantiated by facts in paragraph 23 and 25.
54.

Defendants’ orders under EO-55 which abridges the rights of citizens in Virginia

to be safe from the unrestrained power of government authorities on their own property and in
their own home is an unnecessary abuse of the executive emergency power granted by the
legislature to respond to medical crises. Never before has the quarantine power been used to
such an extent against healthy people, with Defendant Northam’s order allowing the invasion of
any home throughout the entirety of the Commonwealth of Virginia without any requirement for
probable cause other than the Governor’s warped theory that more than ten persons indoors, in a
space of any size, is itself a crime. Defendant Northam’s orders also ignore the fact that larger
properties and home can safely accommodate groups of more than ten people without even
violating the President’s guidelines of safe distance. This is supported by the facts in paragraph

16

26.

55.

Furthermore, Defendant Northam’s unprecedented power to restrict any citizen

within the privacy of his or her own home disproportionately deprives healthy people of their
rights and are an unreasonable restriction on the right of citizens to be safe and secure within
their own property and homes with whomever they choose to invite in because there is no
consensus in medical science that persons not showing symptoms can endanger others or
transmit the COVID-19 virus. Defendant Northam’s orders under EO-55 which prohibit the
gathering of more than 10 people, even outside, are unnecessary since citizens can reasonably
ensure that people without symptoms or those who are most vulnerable to the COVID-19 virus
are not present in any gathering within their homes or on their property and it is possible for the
government to find other means to protect the health and safety of citizens without depriving
them of their Constitutional rights. This is substantiated by facts in paragraphs 12, 13, 14, 15,
16,17, and 18.
Claim related to Third Cause ofAction
56.

For these reasons, Defendant Northam’s actions and the Commonwealth’s

actions which issued Defendant Northam’s EO-55 orders were actions under color of
statute, ordinance, regulation, custom, and/or usage, of the State organized as the
Commonwealth of Virginia, which subjected (or subjects), or caused (or causes) to be
subjected, Tolle and all other citizens of the United States or other persons within the
jurisdiction of Virginia to the deprivation of the rights, privileges, or immunities secured by
the Fourth Amendment of the Constitution. Such actions of Defendants’ are a violation of
42 U.S.C § 1983 which have caused Tolle to suffer injuries and damages, including, but not
limited to, loss of right to exercise his Constitutionally protected rights, liberties and
freedoms, loss of right to use his property as desired, and other damages in an amount to be

17

proved at trial according to proof, including but not limited due to, damage to his
reputation, injury to his profession and business, emotional harm, and exposure to distrust,
contempt, and unfair treatment.
57.

If the facts presented in this Third Cause of Action are taken as true, it is probable

that the Defendant Northam’s orders under EO-55 abridges the right of Tolle and all other
healthy United States citizens in Virginia to be secure in their property, homes, papers and
effects.

The facts show that Defendant Northam’s orders under EO-55 severely and

unnecessarily restrict the freedom of Tolle and others to act in the privacy of their own homes
when more than ten persons are gathered who include non-family membees and Defendant
Northam’s orders make it a crime for Tolle and others to choose to exercise their freedom within
the security and privacy of their own home, even if Tolle is ensuring all persons in his home are
following the President’s guidelines.

Based on the fact that the pleaded factual content should

allow the Court to draw a reasonable inference that Defendants’ actions in ordering EO-55 or
carrying out EO-55 were/are actions under the color of a statute, regulation, custom, and/or
usage, of the Commonwealth of Virginia which serves to deprive Tolle and other citizens in
Virginia the rights, privileges and immunities secured by the Fourth Amendment of the United
States Constituation, the claims included within this Third Cause of Action are based on nonconclusory statements of fact and are facially plausible.
58.

Tolle requests award of attorney’s fees pursuant to 42 U.S.C § 1988.

AS AND FOR A FOURTH CAUSE OF ACTION
VIOLATION OF FOURTEENTH AMENDMENT
59.

Tolle re-alleges and incorporates the above allegations of this complaint as if set

forth fully herein.

18

60.

The Fourthteenth Amendment of the United States Constitution states: “No state

shall make or enforce any law which shall abridge the privileges or immunities of citizens of the
United States; nor shall any state deprive any person of life, liberty, or property, without due
process of law; nor deny to any person within its jurisdiction the equal protection of the laws.”
61.

42 U.S.C § 1983

states:

“Every person who, under color of any statute,

ordinance, regulation, custom, or usage, of any State or Territory or the District of Columbia,
subjects, or causes to be subjected, any citizen of the United States or other person within the
jurisdiction thereof to the deprivation of any rights, privileges, or immunities secured by the
Constitution and laws, shall be liable to the party injured in an action at law, suit in equity, or
other proper proceeding for redress....”
62.

Defendant Northam’s order under EO-55 substantially, unnecessarily and

arbitrarily violates the Constitutional rights of Tolle and other citizens in Virginia for several
reason as shown in the preceeding, including direct and immediate violation of rights under the
First and Fourth Amendments, supra.
63.

By depriving Tolle and other citizens of the liberty to travel to and conduct their

religion, by depriving Tolle and other citizens of the liberty to travel outside their residences and
to gather and assemble as they choose, and by depriving Tolle and other citizens their right to
have the liberty to do what they choose on their own property and deny Tolle and other citizens
of the free use of their own homes, Defendant Northam and the Defendants who carry out EO-55
are causing direct violation of Tolle and other United States citizens rights under the Fourteenth
Amendment. This is substantiated by the facts given in the previous sections showing violations
of the rights of Tolle and others under the First and Fourth Amendments, supra.
64.

Furthermore, by arbitrarily, unnecessarily and disproportionately directing his

orders against citizens who are healthy or have no evidence of being infected with the COVID-

19

19 virus, Defendant Northam is unfairly treating healthy people the same as sick people and
using his quarantine and emergency powers against all in an unprecedented and extreme way.
This is akin to using the criminal powers of the Commonwealth’s government against innocent
people. Such action violates the right to equal protection under the law as guaranteed under the
Fourteenth Amendment. Furthermore, by no allowing any healthy person to escape from the
severe restrictions and powers of the Virginia government in any reasonable way, Defendant
Northam is violating the substantive due process rights of all healthy people in the
Commonwealth of Virginia. This is substantiated by the facts in paragraph 21, 22, 23, 24, 25,
and 26.
65.

For these reasons, Defendant Northam’s order under EO-55 was/is a regulation,

custom or usage which causes Tolle and every United States citizen in Virginia to be deprived of
his or her liberty and property, such right, privilege or immunity being explicitly guaranteed by
the Fourthteenth Amendment of the United States Constitution.
66.

Defendant Northam’s order under EO-55 is also a violation of the right of Tolle

and other citizens who are healthy to have equal protection under the law and deprives Tolle and
other citizens who are healthy substantive due process rights to avoid being penalized under
Defendant Northam’s orders. Furthermore, Defendant Northam’s order under EO-55 was/is an
action under the color of statute or ordinance which violates Tolle’s Constitutional rights because
Defendant Northam’s order makes it a crime under § 44-146.17 for an individual to violate his
order. This is substantiated by facts in paragraph 25.
67.

Defendants’ orders under EO-55 which are unprecedented and abridge the rights

of citizens in Virginia to be treated as innocent, healthy individuals with due process rights and
equal protection under the law and the deprivation of these individual citizens’ rights to liberty
and property, are an unnecessary abuse of the executive emergency power granted by the

20

legislature to respond to medical crises. Never before has the quarantine power been used to
such an extent against healthy people, with Defendant Northam’s order all persons within the
entirety of the Commonwealth of Virginia without any requirement for probable cause or due
process. This is supported by the facts in paragraph 26.
68.

Furthermore, Defendant Northam’s unprecedented power to deprive any citizen of

the rights guaranteed under the Fourteenth Amendment simply because a person may be sick,
even a person without symptoms, disproportionately deprives healthy people of their rights
because there is no consensus in medical science that persons not showing symptoms can
endanger others or transmit the COVID-19 virus. This is substantiated by facts in paragraphs 12,
13,14,15, 16,17, and 18.
Claim related to Fourth Cause ofAction
69.

For these reasons, Defendant Northam’s actions and the Commonwealth’s

actions which issued Defendant Northam’s EO-55 orders were actions under color of
statute, ordinance, regulation, custom, and/or usage, of the State organized as the
Commonwealth of Virginia, which subjected (or subjects), or caused (or causes) to be
subjected, Tolle and all other citizens of the United States or other persons within the
jurisdiction of Virginia to the deprivation of the rights, privileges, or immunities secured by
the Fourteenth Amendment of the Constitution. Such actions of Defendants’ are a violation
of 42 U.S.C § 1983 which have caused Tolle to suffer injuries and damages, including, but
not limited to, loss of right to exercise his Constitutionally protected rights, liberties and
freedoms, loss of right to use his property as desired, and other damages in an amount to be
proved at trial according to proof, including but not limited due to, damage to his
reputation, injury to his profession and business, emotional harm, and exposure to distrust,
contempt, and unfair treatment.

21

APPENDIX F
Petitioner’s Motion for Preliminary Injunction and Expedited Hearing of
April 1,2020

Appendix F

d)

Injury to his right to due process and equal protection under the law, including the

right not to be deprived his liberty or property as guaranteed under the Fourteenth Amendment.

ARGUMENT
2.

The Supreme Court has set the standard for preliminary motion in the last decade

by holding that a party seeking an injunction “must establish that he is likely to succeed on the
merits, that he is likely to suffer irreparable harm in the absence of preliminary relief, that the
balance of equities tips in his favor, and that an injunction is in the public interest.” Winter v.
Natural Res. Def. Council, Inc., 555 U. S. 7,129 S. Ct. 365,172 L. Ed. 2D 249, 21 Fla. L.
Weekly Fed. S. 547 (2008) (hereinafter, “Winters”).
3.

Plaintiff argues that he is likely to succeed on the merits because he has standing

and his complaint has presented a prima facie case for violations of his Constitutional rights.
The Supreme Court has based Constitutional standing for judicial review on three factors: (i)
concrete, particularized and actual or imminent; (ii) fairly traceable to the challenged action; and
(iii) redressable by a favorable ruling, (see Lujan v. Defenders of Wildlife, 504 U. S. 555 (1992))
Each element can be addressed separately to establish Tolle’s Constitutional standing. Although
the Defendant Northam’s order is not directed specifically against Tolle, the fact that the
prohibitions in the order have an immediate effect on the personal behaviors of every family in
Virginia and undoubtedly, almost every individual including Tolle. In Tolle’s case, Defendant
Northam’s order specifically calling for restrictions on worship at Churches has led to Tolle’s
Church closing their public worship and Tolle being told that he can no longer practice the duties
of the his position in the Church which was directly involved with public worship. Furthermore,
Tolle is directly impacted by requiring him to change his behavior when he is outside and he is
prohibited from assembling with like-minded healthy people who oppose Defendant Northam’s

3

administration. Furthermore, the threat of criminal charges should Tolle violate restrictions
under Defendant Northam’s orders has personal jurisdiction for every citizen in Virginia. Tolle is
currently healthy and the harm to Tolle’s reputation which causes the government to treat Tolle
like he is carrying the COVID-19 virus without any evidence has a direct personal impact to
Tolle’s behavior, mental anguish and welfare. All of these effects on Tolle’s life are also actually
realized since Defendant Northam’s order. For these reasons, Defendants’ injury to Tolle is a
concrete and particularized invasion because the orders have an recognizable and immediate
affect on Tolle which is specific to his person and will vary from how others are affected in
individual ways based on Tolle’s current life situation.
4.

It should be clear that the alleged injuries to Tolle’s Constitutional rights are fairly

traceable to Defendant Northam’s orders under EO-55 since without the orders, Tolle would not
face criminal charges for non-compliance and he would have the freedom to choose which safe
practices he would follow to avoid spreading the COVID-19 virus. Furthermore, since it is
possible that Tolle’s Church would open to public services again before the ending date of
Defendant Northam’s order if the order was stayed or modified to allow safe worship, it should
be clear that the injury to Tolle’s rights caused by Defendant Northam’s actions and orders are
redressable by obtaining injunctive relief. For all of these reasons, Plaintiff believes he has
Constitutional standing which will allow him to prevail on the merits of his case.
5.

In addition to having Constitutional standing, Tolle believes he has presented a

prima facie case based on the facts presented in his complaint such that his claims are nonconclusory and of sufficient basis in uncontested facts that it is likely his arguments will survive
any motion for directed verdict. It is also likely that Tolle will be able to convince a trial by jury
that the preponderance of his peers agree that Defendant Northam’s orders are an unprecedented
invasion of their important Constitutional rights. Furthermore, Tolle believes that he will at least

4

be likely to secure a partial injunction for the injuries which are beyond repair, which he has no
other adequate remedy at law if the Defendant Northam’s orders should stand in tact, a partial
injunction provides equitable remedy and is in the public’s interest in protecting their own rights.
For these reasons, Tolle believes that his request for a Preliminary Injunction meets the first
element of Winters and that he is “likely to succeed on the merits”.
6.

The next element of Winters calls for irreparable harm. The Second Circuit has

found a presumption of irreparable harm where the actions have directly limited the rights of the
plaintiff. Bronx Household of Faith v. Bd. ofEduc., N.Y, 331 F. 3d 342 (2d Cir. 2003). By this
standard, the Court should find that a presumption of irreparable harm is warranted because
Defendant Northam’s orders directly limit Tolle’s rights in several ways as delimited in his
complaint. Putting aside the presumption of irreparable harm, Tolle also argues that Defendant
Northam’s actions are actually causing irreparable harm which increases for every day that the
EO-55 orders are allowed to stand. Tolle is no longer able to practice the ministerial duties of his
religion because Defendant Northam’s orders have caused Tolle’s Church to stop offering the
public services which he participated in and there is no likelihood that Tolle will be able to
practice this ministry as long as Defendant Northam’s orders under EO-55 end. Each day that
passes with Tolle’s Church services closed due to the social distancing orders of Defendant
Northam, Tolle is deprived of offering meaningful services to other Church members, some of
whom may die before Defendant Northam’s orders end. Furthermore, Tolle’s ability to assemble
and interact with like-minded people to oppose Defendant Northam’s actions are critically
crippled by Defendant Northam’s restrictions on political gatherings. Every day that Defendant
Northam’s orders under EO-55 are in effect, Tolle and other citizens who are healthy will be
unfairly treated like sick people and forced to forfeit their liberty by being quarantined without
any medical consensus requiring it or any due process to allow Tolle or others to be removed

5

from suspicion. Additionally, if Tolle is charged criminally during the period of Defendant
Northam’s order for exceeding one of the restrictions, any criminal conviction will follow him
for years as irreparable harm. For all of these reasons, Plaintiff believes that without preliminary
relief, Defendant Northam’s orders are causing him irreparable harm.
7.

As far as Winters’ element of equity siding with the Plaintiff, Tolle believes that

the facts presented in his complaint show that Defendant Northam’s actions and orders under
EO-55 are so unprecedented and extreme in the history of the Republic that equity clearly calls
for a tempering of at least some of the restrictions. As noted in the complaint, no use of
, emergency powers have been so sweeping and swept up so many innocent people not affected by
the immediate crisis as Defendant Northam’s actions, with the possible exception of the
unconstitutional involuntary internment of Japanese-American citizens under President
Roosevelt. If Defendant Northam’s current actions and orders approach the inequities of that
time, it should be clear that the Plaintiff’s arguments should receive the balance of equity in this
case. Furthermore, Tolle’s complaint makes it clear that Defendant Northam’s orders under EO55 are an unprecedented abuse of the executive’s quarantine powers. At no time in our history
has the quarantine power been used to deprive so many healthy people in locations where there is
not even any evidence of the virus as Defendant Northam’s orders do today. For these reasons,
Plaintiff believes that the balance of equity sides with his arguments in this case.
8.

Finally, Plaintiff believes that his request for preliminary relief meets the Winters

criteria for being in the public interest. Defendants can attempt to argue that it is in the public
interest to quarantine every citizen in the entirety of Virginia out of an abundance of caution,
even if there is no consensus of science to prove that persons who appear healthy are a threat to
the public’s health. Flowever, if the Court accepts this extreme argument, our nation might as
well void the Bill of Rights. The power to quarantine must be limited by a balance between what

6

is in the best interest of avoiding an outbreak and the interest of protecting the rights of persons
who are not sick. A blanket quarantine over the entire Commonwealth and millions of persons
who are not sick or even threatened yet by the disease cannot be considered a balance. Defendant
Northam’s orders should be considered extreme by any measure. At this time, it is the Court’s
role to restore some balance between the power of the executive and the rights of healthy citizens
to receive their Constitutional rights. If the protection of individual rights to the maximum
extent possible is viewed in the public interest, then preliminary relief from Defendant
Northam’s orders, even if only in part, must be part of the public interest.
CONCLUSION
9.

For the foregoing reasons, Plaintiff believes that the facts and the law support his

request for preliminary relief. Therefore, Plaintiff seeks a Preliminary Injunction to stay the
execution of all or parts of Defendant Northam’s orders under Executive Order 55 (2020)
(hereinafter, “EO-55”) and TRO requiring Defendants to publicly stay the execution of
Defendant Northam’s EO-55 and stop all enforcement of such EO-55. Alternatively, Plaintiff
seeks a Preliminary Injunction and/or TRO which partially stays Defendant Northam’s orders
under EO-55, including one or all of the parts of the order as follows:
a)

All of paragraph 1;

b)

Part of paragraph 1 stating “they must at all times maintain social distancing”;

c)

Paragraph 2;

d)

Sub-paragraphs 2a and 2b;

e)

Paragraph 5; and/or

f)

The section stating “Violation of paragraphs 2, 3, 4 and 5 of this Order shall be a

Class 1 misdemeanor pursuant to § 44-146.17 of the Code of Virginia.”
10.

If the Court does not grant relief to Plaintiff in the form of an immediate

7

APPENDIX G
Petitioner’s Motion for Reconsideration of Court Order Denying
Preliminary Injunction, Expedited Hearing and
Service of Complaint by United States Marshal Service of
April 6, 2020

Appendix G

Plaintiff’s motion requested a TRO claiming irreparable harm and it was accompanied by a
verified complaint which showed immediate and irreparable loss of Plaintiff’s fundamental
Constitutional rights. The complaint also provided evidence of why it was difficult during the
State of Emergency to give notice, to the point of requiring assistance from the United States
Marshal, giving reason why notice should not be required while the offices of the government
are closed. The Court’s failure to consider granting Plaintiff temporary relief from the injury
caused by Defendants without a hearing during the “extraordinary circumstances” of these times
is an error in law and an abuse of discretion.
b) To the extent that Defendant Northam’s Executive Order 55 (2020) (hereinafter, “EO55”) is a quarantine of individuals like Tolle and orders all (who do not meet the exceptions for
essential business) to home confinement. EO-55 provides no due process to individuals affected
by the order and the Court’s Order denies Plaintiff any timely procedural due process during a
quarantine, which is an error in law and violates Tolle’s rights under the Fifth and Fourteenth
Amendments. (“The Constitution requires some kind of hearing before the State deprives a
person of liberty or property.”, Zinermon v. Burch, 494 U.S. 113, 127 (1990); see O’Connor v.
Donaldson, 422 U.S. 563 (1975) for discussion of due process for involuntary confinement for
any reason.) Most states, including Virginia provide due process under statutes authorizing
confinement due to isolation or quarantine. In Virginia, Va. Code § 32.1-48.010 provides for
petition to Virginia Circuit Courts for redress of the abuse of quarantine powers:
“A. Any person or persons subject to an order of quarantine or a court-ordered extension
of any such order pursuant to this article may file an appeal of the order of quarantine as
such order applies to such person or persons in the circuit court for the city or county in
which the subject or subjects of the order reside or are located or the circuit court for the
jurisdiction or jurisdictions for any affected area.”
However in this case, Defendant Northam’s orders under EO-55 do not avail citizens quarantined
under the stay-at-home order any due process opportunity provided under Va. Code § 32.1-

2

48.010, as it would for all proper quarantine actions. In fact, EO-55 does not provide any citizen
due process to avoid unnecessary quarantine restrictions.

If this Court denies Tolle an

opportunity for timely redress of the onerous restrictions which are depriving Tolle and other
citizens of their liberty and property due to the virus, Tolle’s due process rights under the
Constitution will be summarily denied.
c) Even if Defendant Northam’s actions and orders under EO-55 are not considered a
quarantine, the Court’s Order which extinguishes Tolle’s opportunity for any timely due process
in light of protracted injury and the most unprecedented and draconian measures under
emergency powers probably since the Civil War is an error in law. Due process is an essential
safeguard established over the course of centuries used by society to obtain fair judgment. (“This
Court is not alone in recognizing that the right to be heard before being condemned to suffer
grievous loss of any kind, even though it may not involve the stigma and hardships of a criminal
conviction, is a

principle basic to our society” Joint Anti-Fascist Refugees Committee v.

McGrath, 341 U.S. 123, 168 (1951).) Even when the government authority is acting to deprive a
citizen of property or liberty rights through its executive power, due process calls for procedural
protections. (“Such a hearing need not take the form of a judicial or quasi-judicial trial, but the
recipient must be provided with timely and adequate notice detailing the reasons for termination,
and an effective opportunity to defend by confronting adverse witnesses and by presenting his
own arguments and evidence orally before the decisionmaker.” Goldberg v. Kelly, 397 U.S. 254,
254 (1970); “It has been said so often by this Court and others as not to require citation of
authority that due process is flexible, and calls for such procedural protections as the particular
situation demands....Its flexibility is its scope once it has been determined that some process is
due; it is a recognition that not all situations calling for procedural safeguards call for the same
kind of procedure.” Morrissey v. Brewer, 408 U.S. 471, 481 (1972)) Even if the scope or form of

3

due process varies depending on the situation, it is clear that denial of fundamental property and
Liberty freedoms by the Defendants must include due process. In the infamous decision of
Korematsu v. United States, the Supreme Court dealt with the denial of a U. S. citizens rights to
liberty and property under emergency orders of government authorities. As in this case, where
every healthy person is assumed to be guilty of being a possible transmitter of COVID-19 and
must give up their rights to liberty and property to protect the interests of the State, the Exclusion
Order in Karamatsu was based on the belief that all Japanese-American citizens were assumed to
be guilty of being a collaborator with the Japanese empire and deprived these citizens their
liberty and property under the guise of a State interest. The injustice of that decision is embodied
in the following, which reminds the Petitioner of how Defendant Northam’s orders is being
applied to every person within the entire population, which makes it easy for Virginia to
circumvent due process and avoid having to worry about segregating the sick from the healthy in
today’s environment:
“Like curfew, exclusion of those of Japanese origin was deemed necessary because of the
presence of an unascertained number of disloyal members of the group, most of whom
we have no doubt were loyal to this country. It was because we could not reject the
finding of the military authorities that it was impossible to bring about an immediate
segregation of the disloyal from the loyal that we sustained the validity of the curfew
order as applying to the whole group.” (Korematsu v. United States, 323 U.S. 214, 219
(1944))
The dissenting opinion of Justice Jackson provided an echo of the traditions of our Republic at
the time when the war panic of World War II (not too unlike the virus panic of today) was
depriving vast numbers of U. S. citizens their Constitutional rights to property and liberty
unjustly:
“Korematsu was born on our soil, of parents bom in Japan. The Constitution makes him a
citizen of the United States by nativity, and a citizen of California by residence. No claim
is made that he is not loyal to this country. There is no suggestion that, apart from the
matter involved here, he is not law-abiding and well disposed. Korematsu, however, has
been convicted of an act not commonly a crime. It consists merely of being present in the
state whereof he is a citizen, near the place where he was born, and where all his life he
4

has lived.” (Justice Jackson dissent, Korematsu v. United States, 323 U.S. 214, 243
(1944))
The Korematsu decision is a perfect example of a Court willing to sacrifice the fundamental
rights of the Constitution for the expediency of a National Emergency. It is hoped that this Court
would not want to issue rulings which are in keeping with the view of emergency powers that
the Court in Koramatsu embraced.

If this Court wants to view the use and abuse of the

Executive’s emergency powers against citizens differently than how the majority in Koramatsu
did, granting Plaintiff’s request for reconsideration of a TRO which immediately addresses the
Constitutional questions in Defendant Northam’s orders or proceedings for a Preliminary
Injunction which will provide preliminary relief will go a long way towards demonstrating that,
d)

Failure of the Court to grant Plaintiff’s requests for preliminary relief without

reviewing the merits is an error in law (see Reilly v. City of Harrisburg, No. 16-3722, (3d Cir.
2017)).
e) Plaintiff’s Orig. Motion requested an expedited Preliminaiy Injunction hearing due to
the “irreparable harm which increases for every day that the EO-55 orders are allowed to stand.”
(Orig. Motion & Br., p. 5.) The Court’s Order which bases denial of Plaintiff’s request for
preliminary relief and expedited preliminary-injunction hearing on General Order 2020-07 is an
error in fact and/or abuse of discretion. The Chief Judge’s General Order 2020-07 (hereinafter,
“EDVA G.O. 2020-7”) does not preclude hearings where a “manifest injustice would result if
such proceeding were not conducted on an expedited basis”. (EDVA G.O. 2020-7, p. 5).
Plaintiff’s Orig. Motion & Br. requested expedited hearing despite the COVID-19 restrictions for
the very purpose of seeking relief from injury to fundamental rights where a manifest injustice to
Plaintiff and many other citizens would result if a proceeding were not expedited and Plaintiff
makes such request again with this present motion. The Chief Judge’s Order also does not

5

Plaintiff believes that the inclusion of the section shown in item (f) above in Defendant

/

Northern's EO-55 orders which makes violation of the other parts of die order a criminal offense
is particularly harmful to the exercise of the Constitutional rights of Tolle and other citizens and
if die Court fails to grant preliminaiy relief from any other part of Defendant Northam’s orders,
Plaintiff respectfully requests the Court to grant a TRO or Preliminary Injunction which at least
stays the section stating: “Violation of paragraphs 2, 3,4 and 5 of this Order shall be a Class 1
misdemeanor pursuant to § 44-146.17 of the Code of Virginia” Plaintiff believes that if the
Court is so disposed, this action would make Defendant Northam’s Executive Orders
commensurate with what many other States are implementing under their stay-at-home orders
and would represent a reasonable balance between the urgent need for preliminary relief and the
needs of public health.
If the Court does not grant relief to Plaintiff in the form of an immediate TRO and/or
Preliminaiy Injunction, Plaintiff respectfully requests for an expedited preliminary-injunction
'

si

heating to address Plaintiff’s need for urgent relief from Defendants’ injury to his Constitutional
rights, Plaintiff respectfully requests an expedited hearing as an exception under the Chief
Judge’s General Orders in order to avoid a manifest injustice which would result if such
proceeding were not conducted on an expedited basis. Should the Court prefer to avoid an inperson hearing, Plaintiff respectfully requests the use of alternative hearing procedures under the
Chief Judge’s orders including the use of telephone or video conference.

Dated:

4~/
Respectfully submitted,
.By:
rames Tolle
'Pro Se
11171 Soldiers Court
Manassas, VA 20109
703-232-9970
jtmail0000@yahoo.com

0

9

APPENDIX H
Petitioner’s Emergency Motion for TRO or Preliminary Injunction/
Stay of Defendant Northam’s Executive Order 55 (2020) of April 16,2020

Appendix H

Consideration of the Consensus of Science before the Winter
Balancing and Public Interest Criteria are Evaluated
11.

The argument on the balancing of equities and public interest in this

case are necessarily conflated with the arguments on whether healthy,
asymptomatic people can transmit the virus and whether social distancing is an
effective defense against epidemics. Both of these issues are highly debatable and
are not, like the District Court seems to conclude, settled by a consensus of
science. Appellant's complaint provided evidence showing the contrary: that the
consensus of science does not prove that persons without symptoms can transmit
the virus. (See Appellant's Complaint, paragraphs 14 through 18.) The latest
information made available to the public by the CDC continues to fail to show
conclusive evidence that this is settled science, making it still unclear if persons
without symptoms can transmit the virus:
"The onset and duration of viral shedding and the period of infectiousness
for COVID-19 are not yet known"1
"The virus is thought to spread mainly from person-to-person. Between
people who are in close contact with one another (within about 6 feet).
Through respiratory droplets produced when an infected person coughs,
sneezes or talks. These droplets can land in the mouths or noses of people
who are nearby or possibly be inhaled into the lungs. Some recent studies
have suggested that COVID-19 may be spread by people who are not
showing symptoms."2
1 From https://www.cdc.gov/coronavirus/2019-ncov/hcp/faq.html
2 From https://www.cdc.gov/coronavirus/2019-ncov/prevent-getting-sick/
how-covid-spreads.html?CDC_AA_refVal=https%3A%2F%2Fwww.cdc.gov
%2Fcoronavirus%2F2019-ncov%2Fprepare%2Ftransmission.html
7

12.

Furthermore, leading scientists and doctors have come forward lately

to question the assumptions behind the scientific understanding of COVID-19 and
the effectiveness of Virginia's social distancing measures:
“There is no evidence that the mitigation does anything but prolonging the
ordeal. In fact we have evidence that the mitigation does nothing and the
most prominent [evidence] is comparing Sweden to the three neighboring
countries Norway, Denmark and Finland and if you look at the
epidemiologic curve in the two regions, Sweden and the surrounding
countries, there's no difference." [Public comments by Dr. Knut Wittkowski,
Former Head of Department of Research Design and Biostatistics at
Rockefeller University given on WMAL on or around April 10, 2020.]3
13.

Furthermore, Defendant Northam’s orders also reflect that the

consensus of science does not show that all healthy people should be quarantined.
Despite the unprecedented restrictions on many Virginians, the EO-55 orders allow
thousands of Virginians to leave their homes every day and gather in numbers
much greater than 10 at places of essential business. There is no evidence that the
work by thousands of healthy people at essential businesses every day have any
impact on the increase in the spread of the virus or the threat to the public health.
3

Also, John Ioannidis, Professor of Epidemiology and Population
Health, Co-Director of Meta-Research Information Center at
Stanford University has written about the ineffectiveness of
the social distancing and stay-at-home orders ("we are making
decisions without reliable data",
http: //www. st at news . com/2 020/03/17/a-fiasco-in-the-making-asthe-coronavirus-pandemic-takes-hold-we-are-making-decisionswithout-reliable-data); Dr. David Katz, the Founding Director
of Yale University's Yale-Griffin Prevention Research Center,
has written a widely read op-ed in the New York Times in March
highlighting the failures of the current COVID-19 response and
the dangerous impacts of sending everyone home and disrupting
society.

8

But how can this be if gatherings of healthy people are supposed to be
unacceptably dangerous? Most essential businesses exclude people with
symptoms and the evidence to-date is that people without symptoms have not
demonstrated a risk at these places of business. If the Defendants truly believed
that gatherings of healthy people greater than 10 was a serious threat for
transmission of this virus, it is hypocritical and irresponsible of them to place many
thousands of Virginians who work in essential business in harms way every day.
By their own actions, Defendants seem to acknowledge that the consensus of
science does not show that healthy people outside of their homes, at work, are a
threat to others.

Balancing of Equities under Winter
14.

The District Court is wrong on the law because the consideration of

equities of both parties and the public interest requires a balancing of the concerns
and needs of all parties. This is shown in Winter: "In each case, courts 'must
balance the competing claims of injury and must consider the effect on each party
of the granting or withholding of the requested relief.' [Winter, Section B, quoting
Amoco Production Co., 480 U. S., at 542.] For Constitutional injuries, this
"balancing" must consider if the un-enjoined actions of the government are based
on the minimum injury to citizen rights as the situation allows. Blind acceptance of
the executive's un-amended action as the only way to achieve the needs of the
9

contrary to Defendant Northam's orders and an increase in the infection threat in
Virginia. This follows from the facts supporting argument (a).
c)

Appellant's Motion to Reconsider has recommended a balanced

approach to mitigating the injuries from Defendant Northam's current orders by
staying the portion of his orders which make it criminal for the exercise of the
constitutional rights of the citizens of Virginia. Appellant believes that this would
not seriously impact the Commonwealth's achievement of its public health goals
for the following reasons:
1. This mitigation would make Virginia's stay-at-home orders more in
'j

line with several other states (Motion to Reconsider, page 9);
2. There is broad public support for reducing the spread of the virus;
3. The President’s Coronavirus guidelines to “Control the Spread” are
voluntary and do not call for the states to enforce criminal
penalties for compliance (Appellant's Complaint, page 4)
d)

Upon information and belief, the Defendants have not had to

use criminal charges to enforce Defendant Northam's orders up to the date of this
filing.
Consideration of the Public Interest
20.

The Winter criteria also calls for consideration of the public interest.

The public interest considerations in this case do not only involve the interest in
keeping people at home. The very definition of essential business which is found
14

in Defendant Northam’s orders also shows that there is a fundamental public
interest in many healthy people not staying at home. By requiring some businesses
to remain open during the State of Emergency, the Defendants are acknowledging
that it is in the public interest for healthy people to have the freedom to travel and
to work in order to conduct the essential business of the public.

Balancing of Equities and the Public Interest Related to Korematsu
21.

Appellant’s pleadings include the example of the abuse of

government’s emergency powers under the Supreme Court's decision in Korematsu
v. United States, 323 U.S. 214 (Appellant’s Motion to Reconsider, paragraph c).6
As in this case, the Court in Korematsu relied on the determinations of the
authorities that it was easier to strip a vast number of innocent Americans their
rights under the Constitution because it was difficult to find those actually guilty of
disloyalty:
“It was because we could not reject the finding of the military authorities
that it was impossible to bring about an immediate segregation of the
disloyal from the loyal that we sustained the validity of the curfew order as
applying to the whole group. (Korematsu v. United States, 323 U.S. 214,
219 (1944))

6

The District Court mentions Appellant's reference to Korematsu
without specifically rebutting it. [D. Ct. Ruling, page 2]
Indeed, the unquestioning belief that the District Court
expresses in the inerrancy of the Governor [Ibid., pages 2-3]
sounds very reminiscent of the reliance that the Supreme Court
in Korematsu put into the inerrancy of the authorities then.

15

unlawful detainment for more than 20 without a habeus corpus reply. The Courts
do not think this is a “brief period” for taking away someone’s right to liberty.
How many months can the Courts countenance the denial of other rights under the
First, Fourth and Fourteenth Amendments?
29.

The District Court's ruling erred on the facts by ignoring the facts

presented in appellant's complaint and stating that "the crisis imposed by the
Coronavirus is also unprecedented". (D. Ct. Ruling, p. 3.) This statement reflects
an incredible ignorance of the history of public health emergencies. The CDC
reports that the 1918 pandemic commonly known as the Spanish Influenza infected
as many as 500 million people world-wide and killed as many as 675,000 people in
the United States alone.7 There is no way to argue that the Coronavirus crisis, even
it approaches the extent predicted in the most extreme current models will reach
the extent of the 1918 pandemic, or can be considered "unprecedented" compared
to the crisis that the 1918 pandemic caused. Furthermore, the current Coronavirus
outbreak does not yet exceed the annual estimates for the extent of the impacts of
seasonal influenza outbreaks. For this year alone, the CDC estimates over 35
million infections of the flu in the United States with the number of deaths between
24,000 and 62,000.8 Until the current Coronavirus outbreak exceeds the impacts of

7
8

From https://www.cdc.gov/flu/pandemic-resources/1918commemoration/1918-pandemic-history.htm
From https://www.cdc.gov/flu/about/burden/preliminary-inseason-estimates.htm
21

the seasonal flu, it is difficult to see how this Court can accept the District Court's
assertion that the current Coronavirus is "unprecedented" as anything but clearly
false.

CONCLUSION AND RELIEF REQUESTED
30.

For the foregoing reasons, Appellant believes that the District Court

erred on the law and the facts of this case and that a de novo review supports his
request for preliminary relief under the four criteria in Winter. Appellant
respectfully requests that the Court grant Appellant such emergency and
preliminary relief as soon as possible. Appellant respectfully requests injunctive
relief which will stay the execution of all or parts of Defendant Northam’s orders
under EO-55 and stop all enforcement temporarily. If the Court does not grant a
full stay of Defendant Northam’s orders, Appellant respectfully requests a partial
stay which will address the constitutional concerns of the orders, including staying
the inclusion of religious activities in Paragraph 2 and staying the effect of the
section stating: “Violation of paragraphs 2, 3, 4 and 5 of this Order shall be a Class
1 misdemeanor pursuant to § 44-146.17 of the Code of Virginia”
31.

If the Court does not immediately grant some form of preliminary

relief to Appellant, Appellant respectfully requests for an expedited preliminaryinjunction hearing to address Appellant’s need for urgent relief from Defendants’
injury to his Constitutional rights. If this Court does not ensure Appellant has the
22

APPENDIX I
Defendant Northam’s Amended Order of the Governor and State Health Commissioner
Extending Order of Public Health Emergency Two of
April 23, 2020

Appendix I

COMMONWEALTH of VIRGINIA
Executive Department
AMENDED ORDER OF THE GOVERNOR AND STATE HEALTH COMMISSIONER
Extending Order of Public Health Emergency Two
WHEREAS, the State Health Commissioner declared COVID-19 a disease of public health
threat on February 7, 2020; and
WHEREAS, Virginia Governor Ralph S. Northam declared a state of emergency due to
COVID-19 on March 12, 2020 in Executive Order No. 51 by virtue of the authority vested in the
Governor by Article V, Section 7 of the Constitution of Virginia and by §§ 44-146.17 and 44-75.1
of the Code of Virginia; and
WHEREAS, the Governor and State Health Commissioner issued Order of Public Health
Emergency One on March 17, 2020, as amended on March 20, 2020, declaring a public health
emergency; and
WHEREAS, COVID-19 spreads from person-to-person, transmitted via respiratory
droplets, and can be spread from an infected person who does not have symptoms to another
person; and
WHEREAS, no current vaccine or known treatment options exist at this time; and
WHEREAS, the supply chain in the Commonwealth for health care personal protective
equipment (PPE), to include gowns, masks, face shields and respirators, has been severely
disrupted by the significant increased use of such equipment worldwide in response to COVID-19,
such that there are now critical shortages of this equipment for health care workers; and
WHEREAS, it is anticipated that due to the continuing spread of COVID-19, a critical
shortage of needed hospital beds will result; and
WHEREAS, the Commonwealth of Virginia seeks to curtail the spread of the COVID-19
pandemic in the Commonwealth, protect our health care workers, and ensure sufficient hospital
beds necessary to serve Virginians’ medical needs; and
WHEREAS, pursuant to § 32.1-13 of the Code of Virginia, the State Health Commissioner,
acting for the State Board of Health when it is not in session pursuant to § 32.1-20 of the Code of
Virginia, is vested with authority to make separate orders to meet any emergency not provided for
by general regulations, for the purpose of suppressing conditions dangerous to the public health
and communicable, contagious, and infectious diseases.
NOW THEREFORE, the Governor and State Health Commissioner hereby issue this Order
prohibiting all inpatient and outpatient surgical hospitals licensed under 12 VAC 5-410, free­
standing endoscopy centers, physicians’ offices, and dental, orthodontic, and endodontic offices in

the Commonwealth from providing procedures and surgeries that require PPE, which if delayed,
are not anticipated to cause harm to the patient by negatively affecting the patient's health
outcomes, or leading to disability or death. This does not include outpatient visits delivered in
hospital-based clinics.
This Order does not apply to the full suite of family planning services and procedures nor
to treatment for patients with emergency or urgent needs. Inpatient and outpatient surgical
hospitals licensed under 12 VAC 5-410, free-standing endoscopy centers, physicians’ offices, and
dental, orthodontic, and endodontic offices may perform any procedure or surgery that if delayed
or canceled would result in the patient's condition worsening. Outpatient surgical hospitals are
encouraged to work with their local inpatient hospitals to assist with surge capacity needs.
Any willful violation or refusal, failure, or neglect to comply with this Order, issued
pursuant to § 32.1-13 of the Code of Virginia, is punishable as a Class 1 misdemeanor pursuant to
§ 32.1-27 of the Code of Virginia. The State Health Commissioner may also seek injunctive relief
in circuit court for violation of this Order pursuant to § 32.1-27 of the Code of Virginia.
WHEREAS, this Order shall remain in full force and effect until 11:59 p.m., April 30,
2020. Citation of this Order shall be Commonwealth of Virginia Order of Public Health
Emergency Two.
Given under my hand and under the Seal of the Office of the State Health Commissioner of
the Commonwealth of Virginia this 23rd Day of April, 2020.

r Ralph S. Northam, Governor

M. Norman Oliver, MD, MPH
State Health Commissioner

*
*

APPENDIX J
Relevant Constitutional References

Appendix J

Amendment I
Congress shall make no law respecting an establishment of religion, or prohibiting the
free exercise thereof; or abridging the freedom of speech, or of the press; or the right of
the people peaceably to assemble, and to petition the government for a redress of
grievances.
Amendment IV
The right of the people to be secure in their persons, houses, papers, and effects, against
unreasonable searches and seizures, shall not be violated, and no warrants shall issue, but
upon probable cause, supported by oath or affirmation, and particularly describing the
place to be searched, and the persons or things to be seized.
Amendment V
No person shall be held to answer for a capital, or otherwise infamous crime, unless on a
presentment or indictment of a grand jury, except in cases arising in the land or naval
forces, or in the militia, when in actual service in time of war or public danger; nor shall
any person be subject for the same offense to be twice put in jeopardy of life or limb; nor
shall be compelled in any criminal case to be a witness against himself, nor be deprived
of life, liberty, or property, without due process of law; nor shall private property be taken
for public use, without just compensation.
Amendment XIV
Section 1.
All persons born or naturalized in the United States, and subject to the jurisdiction
thereof, are citizens of the United States and of the state wherein they reside. No state
shall make or enforce any law which shall abridge the privileges or immunities of citizens
of the United States; nor shall any state deprive any person of life, liberty, or property,
without due process of law; nor deny to any person within its jurisdiction the equal
protection of the laws.

J-l

APPENDIX K
Relevant Statutes

Appendix K

5

This Appendix includes Sections within the
Code of Virginia

K-l

§ 44-146.17. Powers and duties of Governor.
The Governor shall be Director of Emergency Management. He shall take such action
from time to time as is necessary for the adequate promotion and coordination of state
and local emergency services activities relating to the safety and welfare of the
Commonwealth in time of disasters.
The Governor shall have, in addition to his powers hereinafter or elsewhere prescribed by
law, the following powers and duties:
(1) To proclaim and publish such rules and regulations and to issue such orders as may, in
his judgment, be necessary to accomplish the purposes of this chapter including, but not
limited to such measures as are in his judgment required to control, restrict, allocate or
regulate the use, sale, production and distribution of food, fuel, clothing and other
commodities, materials, goods, services and resources under any state or federal
emergency services programs.
He may adopt and implement the Commonwealth of Virginia Emergency Operations
Plan, which provides for state-level emergency operations in response to any type of
disaster or large-scale emergency affecting Virginia and that provides the needed
framework within which more detailed emergency plans and procedures can be
developed and maintained by state agencies, local governments and other organizations.
He may direct and compel evacuation of all or part of the populace from any stricken or
threatened area if this action is deemed necessary for the preservation of life, implement
emergency mitigation, preparedness, response or recovery actions; prescribe routes,
modes of transportation and destination in connection with evacuation; and control
ingress and egress at an emergency area, including the movement of persons within the
area and the occupancy of premises therein.
Executive orders, to include those declaring a state of emergency and directing
evacuation, shall have the force and effect of law and the violation thereof shall be
punishable as a Class 1 misdemeanor in every case where the executive order declares
that its violation shall have such force and effect.
Such executive orders declaring a state of emergency may address exceptional
circumstances that exist relating to an order of quarantine or an order of isolation
concerning a communicable disease of public health threat that is issued by the State
Health Commissioner for an affected area of the Commonwealth pursuant to Article 3.02
(§ 32.1-48.05 et seq.) of Chapter 2 of Title 32.1.
Except as to emergency plans issued to prescribe actions to be taken in the event of
disasters and emergencies, no rule, regulation, or order issued under this section shall
have any effect beyond June 30 next following the next adjournment of the regular
session of the General Assembly but the same or a similar rule, regulation, or order may
thereafter be issued again if not contrary to law;
(2) To appoint a State Coordinator of Emergency Management and authorize the
K-2

appointment or employment of other personnel as is necessary to carry out the provisions
of this chapter, and to remove, in his discretion, any and all persons serving hereunder;
(3) To procure supplies and equipment, to institute training and public information
programs relative to emergency management and to take other preparatory steps
including the partial or full mobilization of emergency management organizations in
advance of actual disaster, to insure the furnishing of adequately trained and equipped
forces in time of need;
(4) To make such studies and surveys of industries, resources, and facilities in the
Commonwealth as may be necessary to ascertain the capabilities of the Commonwealth
and to plan for the most efficient emergency use thereof;
(5) On behalf of the Commonwealth enter into mutual aid arrangements with other states
and to coordinate mutual aid plans between political subdivisions of the Commonwealth.
After a state of emergency is declared in another state and the Governor receives a
written request for assistance from the executive authority of that state, the Governor may
authorize the use in the other state of personnel, equipment, supplies, and materials of the
Commonwealth, or of a political subdivision, with the consent of the chief executive
officer or governing body of the political subdivision;
(6) To delegate any administrative authority vested in him under this chapter, and to
provide for the further delegation of any such authority, as needed;
(7) Whenever, in the opinion of the Governor, the safety and welfare of the people of the
Commonwealth require the exercise of emergency measures due to a threatened or actual
disaster, he may declare a state of emergency to exist;
(8) To request a major disaster declaration from the President, thereby certifying the need
for federal disaster assistance and ensuring the expenditure of a reasonable amount of
funds of the Commonwealth, its local governments, or other agencies for alleviating the
damage, loss, hardship, or suffering resulting from the disaster;
(9) To provide incident command system guidelines for state agencies and local
emergency response organizations; and
(10) Whenever, in the opinion of the Governor or his designee, an employee of a state or
local public safety agency responding to a disaster has suffered an extreme personal or
family hardship in the affected area, such as the destruction of a personal residence or the
existence of living conditions that imperil the health and safety of an immediate family
member of the employee, the Governor may direct the Comptroller of the
Commonwealth to issue warrants not to exceed $2,500 per month, for up to three
calendar months, to the employee to assist the employee with the hardship.

K-3

§ 32.1-48.05. Application of article; determination of exceptional circumstances;
regulations; duties of the State Health Commissioner not be delegated.
A. Upon a determination by the State Health Commissioner that exceptional
circumstances exist relating to one or more persons in the Commonwealth who are
known to have been exposed to or infected with or reasonably suspected to have been
exposed to or infected with a communicable disease of public health threat and that such
exceptional circumstances render the procedures of Article 3.01 (§ 32.1-48.01 et seq.) of
this chapter to be insufficient control measures or that the individuals have failed or
refused to comply voluntarily with the control measures directed by the State Health
Commissioner in response to a communicable disease of public health threat, the State
Health Commissioner may invoke the provisions of this article relating to quarantine and
isolation.
B. The Board of Health shall promulgate regulations for the implementation of this article
that shall (i) address the circumstances that are subject to the application of Article 3.01
(§ 32.1-48.01 et seq.) of this chapter and the exceptional circumstances in which this
article may be invoked by the State Health Commissioner; (ii) provide procedures to
assure that any quarantine or isolation is implemented in the least restrictive environment;
(iii) ensure that the essential needs of persons subject to an order of isolation issued
pursuant to this article shall be met, including, but not limited to, food, water, and health
care, e.g., medications, therapies, testing, and durable medical equipment; (iv) provide
procedures for proper notice of orders of quarantine and orders of isolation; (v) provide
procedures for the State Health Commissioner to issue an emergency detention order for
persons for whom he has probable cause to believe that they may fail or refuse to comply
with an order of quarantine or an order of isolation; and (vi) address any other issue or
procedure covered herein that the Board deems to be properly the subject of regulation.
C. The powers granted to the State Health Commissioner pursuant to this article shall not
be delegated to or invoked by any local or district health department director. However,
in the event the State Health Commissioner, duly appointed and confirmed pursuant to §
32.1-17, shall be unable to perform his duties pursuant to this article, any Deputy
Commissioner, appointed by tire State Health Commissioner and approved by the Board
pursuant to § 32.1-22, shall be authorized to invoke the provisions of this article.

K-4

§ 32.1-48.08. Declaration of quarantine.
A. The State Health Commissioner may declare a quarantine of any person or persons or
any affected area after he finds that the quarantine is the necessary means to contain a
communicable disease of public health threat as defined in § 32.1-48.06 to which such
person or persons or the people of an affected area have been or may have been exposed
and thus may become infected.
B. The State Health Commissioner shall record his findings and any information on
which he has relied in making the finding required for quarantine pursuant to subsection
A. The State Health Commissioner's record of findings concerning any communicable
disease of public health threat shall be confidential and shall not be disclosed in
accordance with subdivision 12 of § 2.2-3705.5.
C. The State Health Commissioner may order the quarantined person or persons to
remain in their residences, to remain in another place where they are present, or to report
to a place or places designated by the State Health Commissioner for the duration of their
quarantine. An electronic device may be used to enforce any such quarantine. The
Commissioner's order of quarantine shall be for a duration consistent with the known
incubation period for such disease or, if the incubation period is unknown, for a period
anticipated as being consistent with the incubation period for other similar infectious
agents.

K-5

§ 32.1-48.010. Appeal of any order of quarantine.
A. Any person or persons subject to an order of quarantine or a court-ordered extension
of any such order pursuant to this article may file an appeal of the order of quarantine as
such order applies to such person or persons in the circuit court for the city or county in
which the subject or subjects of the order reside or are located or the circuit court for the
jurisdiction or jurisdictions for any affected area. Any petition for appeal shall be in
writing, shall set forth the grounds on which the order of quarantine is being challenged
vis-a-vis die subject person or persons or affected area, and shall be served upon the State
Health Commissioner or his legal representative.
B. A hearing on the appeal of the order of quarantine shall be held within 48 hours of the
filing of the petition for appeal or, if the 48-hour period terminates on a Saturday, Sunday,
legal holiday or day on which the court is lawfully closed, the hearing shall be held on the
next day that is not a Saturday, Sunday, legal holiday or day on which the court is
lawfully closed.
In extraordinary circumstances, for good cause shown, the Commissioner may request a
continuance of the hearing, which the court shall only grant after giving due regard to the
rights of the affected individuals, the protection of the public health and safety, the
severity of the emergency, and the availability of witnesses and evidence.
C. Any person appealing an order of quarantine shall have the burden of proving that he
is not properly the subject of the order of quarantine.
D. The filing of an appeal shall not stay any order of quarantine.
E. Upon receiving multiple appeals of an order of quarantine that applies to a group of
persons or an affected area, the court may, on the motion of any party or on the court's
own motion, consolidate the cases in a single proceeding for all appeals when (i) there are
common questions of law or fact relating to the individual claims or rights to be
determined; (ii) the claims of the consolidated cases are substantially similar; and (iii) all
parties to the appeals will be adequately represented in the consolidation.
E The circuit court shall not conduct a de novo review of the order of quarantine;
however, the court shall consider the existing record and such supplemental evidence as
the court shall consider relevant. The court shall conduct the hearing on an appeal of an
order of quarantine in a manner that will protect the health and safety of court personnel,
counsels, witnesses, and the general public and in accordance with rules of the Supreme
Court of Virginia pursuant to subsection C of § 17.1-503. The court may, for good cause
shown, hold all or any portion of the hearings in camera upon motion of any party or
upon the court's own motion.
G. Upon completion of the hearing, the court may (i) vacate or modify the order of
quarantine as such order applies to any person who filed the appeal and who is not,
according to the record and the supplemental evidence, appropriately subject to the order
of quarantine; (ii) vacate or modify the order of quarantine as such order applies to all
persons who filed an appeal and who are not, according to the record and the
supplemental evidence, appropriately subject to the order of quarantine; (iii) confirm the
K-6

order of quarantine as it applies to any person or all appealing parties upon a finding that
such person or persons are appropriately subject to the order of quarantine and that
quarantine is being implemented in the least restrictive environment to address the public
health threat effectively, given the reasonably available information on effective control
measures and the nature of the communicable disease of public health threat; or (iv)
confirm the order of quarantine as it applies to all persons subject to the order upon
finding that all such persons are appropriately subject to the order of quarantine and that
quarantine is being implemented in the least restrictive environment to address the public
health threat effectively, given the reasonably available information on effective control
measures and the nature of the communicable disease of public health threat.
In any case in which the court shall vacate the order of quarantine as it applies to any
person who has filed a request for review of such order and who is subject to such order
or as it applies to all persons seeking judicial review who are subject to such order, the
person or persons shall be immediately released from quarantine unless such order to
vacate the quarantine shall be stayed by the filing of an appeal to the Supreme Court of
Virginia. Any party to the case may file an appeal of the circuit court decisions to the
Supreme Court of Virginia. Parties to the case shall include any person who is subject to
an order of quarantine and has filed an appeal of such order with the circuit court and the
State Health Commissioner.
H. Appeals of any final order of any circuit court regarding the State Health
Commissioner's petition for review and confirmation or extension of an order of
quarantine or any appeal of an order of quarantine by a person or persons who are subject
to such order shall be appealable directly to the Supreme Court of Virginia, with an
expedited review in accordance with the rules of the court pursuant to subsection C of §
17.1-503.
I. Appeals of any circuit court order relating to an order of quarantine shall not stay any
order of quarantine.
J. Persons requesting judicial review of any order of quarantine shall have the right to be
represented by an attorney in all proceedings. If the person is unable to afford an attorney,
counsel shall be appointed for the person by the circuit court for the jurisdiction in which
the person or persons who are subject to the order of quarantine reside or, in the case of
an affected area, by the circuit court for the jurisdiction or jurisdictions for the affected
area. Counsel so appointed shall be paid at a rate established by the Supreme Court of
Virginia from the Commonwealth's criminal fund.

K-7

